<html>
<title> - DISCOVERY ON THE FRONTIERS OF SPACE: EXPLORING NASA'S SCIENCE MISSION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                  DISCOVERY ON THE FRONTIERS OF SPACE:
                    EXPLORING NASA'S SCIENCE MISSION

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                                 OF THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
              
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 11, 2019

                               __________

                           Serial No. 116-27

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 





       Available via the World Wide Web: http://science.house.gov
       
       
       
       
       
       
                            ______
                          

              U.S. GOVERNMENT PUBLISHING OFFICE 
 36-565PDF             WASHINGTON : 2020
 
      
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                 Subcommittee on Space and Aeronautics

                 HON. KENDRA HORN, Oklahoma, Chairwoman
ZOE LOFGREN, California              BRIAN BABIN, Texas, Ranking Member
AMI BERA, California                 MO BROOKS, Alabama
ED PERLMUTTER, Colorado              BILL POSEY, Florida
DON BEYER, Virginia                  PETE OLSON, Texas
CHARLIE CRIST, Florida               MICHAEL WALTZ, Florida
KATIE HILL, California
JENNIFER WEXTON, Virginia

                         C  O  N  T  E  N  T  S

                             June 11, 2019

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Kendra Horn, Chairwoman, Subcommittee 
  on Space and Aeronautics, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    10
    Written Statement............................................    11

Statement by Representative Brian Babin, Ranking Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    12
    Written Statement............................................    13

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    14
    Written statement............................................    15

                               Witnesses:

Dr. Thomas H. Zurbuchen, Associate Administrator, Science Mission 
  Directorate, NASA
    Oral Statement...............................................    17
    Written Statement............................................    20

Dr. Chelle Gentemann, Senior Scientist, Earth and Space Research; 
  Co-chair, Committee on Earth Science and Applications from 
  Space, Space Studies Board, National Academies of Sciences, 
  Engineering, and Medicine
    Oral Statement...............................................    28
    Written Statement............................................    30

Dr. David Spergel, Charles A. Young Professor of Astronomy, 
  Princeton University; Director, Center for Computational 
  Astrophysics at the Flatiron Institute; Former Chair, Space 
  Studies Board, National Academies of Sciences, Engineering, and 
  Medicine
    Oral Statement...............................................    51
    Written Statement............................................    53

Dr. Mark Sykes, Chief Executive Officer and Director, Planetary 
  Science Institute
    Oral Statement...............................................    62
    Written Statement............................................    64

Discussion.......................................................    79

             Appendix I: Answers to Post-Hearing Questions

Dr. Thomas H. Zurbuchen, Associate Administrator, Science Mission 
  Directorate, NASA..............................................   102

Dr. Chelle Gentemann, Senior Scientist, Earth and Space Research; 
  Co-chair, Committee on Earth Science and Applications from 
  Space, Space Studies Board, National Academies of Sciences, 
  Engineering, and Medicine......................................   114

Dr. David Spergel, Charles A. Young Professor of Astronomy, 
  Princeton University; Director, Center for Computational 
  Astrophysics at the Flatiron Institute; Former Chair, Space 
  Studies Board, National Academies of Sciences, Engineering, and 
  Medicine.......................................................   120

Dr. Mark Sykes, Chief Executive Officer and Director, Planetary 
  Science Institute..............................................   123

            Appendix II: Additional Material for the Record

Additional responses submitted by Dr. Thomas H. Zurbuchen, 
  Associate Administrator, Science Mission Directorate, NASA.....   130

Report submitted by Dr. Chelle Gentemann, Senior Scientist, Earth 
  and Space Research; Co-chair, Committee on Earth Science and 
  Applications from Space, Space Studies Board, National 
  Academies of Sciences, Engineering, and Medicine...............   133


                  DISCOVERY ON THE FRONTIERS OF SPACE:

                    EXPLORING NASA'S SCIENCE MISSION

                              ----------                              


                         TUESDAY, JUNE 11, 2019

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 10:01 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Kendra 
Horn [Chairwoman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairwoman Horn. This hearing will come to order.
    Without objection, the Chair is authorized to declare 
recess at any time.
    Good morning, and welcome. I especially want to welcome our 
witnesses, and thank you very much for being here this morning.
    Before we begin our second hearing, I want to say it is 
truly an honor and a pleasure to Chair this Subcommittee and to 
note that our investments in space and aeronautics are 
catalysts for growth, discovery, innovation, and economic 
growth in America. I'm grateful for the opportunity to work 
with Ranking Member Babin and all of the Members as we consider 
the important issues before the Subcommittee.
    We began by focusing our first hearing on human space 
exploration. We have a lot to do, and today we are turning our 
attention to science. Space science has come a long way in the 
60 years since NASA's (National Aeronautics and Space 
Administration's) founding and James Van Allen's launch of 
Explorer 1, America's first science satellite, in 1958. While 
Explorer 1 provided initial glimpses into what could be 
discovered from vantage points above and beyond the surface of 
Earth, NASA's science spacecraft have gone on to study our Sun 
and every planet in the solar system, to look back into the 
early universe, and to enhance our understanding of our own 
planet.
    Today, NASA's Science Mission Directorate (SMD) represents 
a $6.9 billion investment that funds space-based and suborbital 
science missions, ground-based research, data analysis, and 
technology development. These elements support NASA's programs 
focused on planetary science, Earth science and applications, 
astrophysics, and heliophysics--the study of the Sun and its 
interactions with the Earth and the solar system.
    Through these programs, scientists are seeking answers to 
questions--to fundamental questions: What is dark energy? And 
how and why is the universe expanding, and at what rate? How 
have the many chemical and physical processes that shaped the 
solar system evolved and interacted over time? What are the 
structure, function, and biodiversity of Earth's ecosystems, 
and how and why are they changing in time and space? What are 
the origins of the Sun's activity and how can we predict 
variations in the space environment?
    In pursuing answers to these and other questions, NASA's 
scientific findings increasingly become interwoven into our 
everyday lives, from decisions to reroute aircraft due to solar 
activity and space weather, to surveying the skies for 
potentially harmful near-Earth asteroids, to using ocean color 
and temperature maps for commercial fishery forecasting, or in 
using satellite data to assess the impacts of our changing 
climate, and much more.
    Through an organized, science community-led process known 
as the decadal surveys, NASA's Science Mission Directorate has 
benefited from a systemic approach to setting priorities that 
guide NASA's planetary, heliophysics, astrophysics, and Earth 
science program over 10 years. Not only do the decadal surveys 
guide the content of NASA's science programs, they also help 
commit to the highest--help us commit to the highest priorities 
identified by the science community. The decadal surveys keep 
us honest and focused on top priorities when funding 
constraints or competing interests arise.
    However, consistently following and implementing decadal 
priorities has not always been easy. The complexity involved in 
ambitious, large-scale missions has led, in some cases, to 
significant cost and schedule growth, so we must be vigilant in 
ensuring that NASA is as innovative in program and cost 
management as it is in advancing scientific discovery. How can 
NASA and the community both encourage ambitious breakthrough 
science while minimizing unanticipated costs and delays that 
may come with pushing the edges of innovation? And must pushing 
the edges of innovation and discovery always be equated to 
large and expensive missions? Or can the use of small 
satellites and CubeSats and hosted payloads, where appropriate, 
also help us acquire scientific observations and measurements 
at a lower cost?
    It is clear we have a lot to discuss, and I look forward to 
our witnesses' testimony and perspectives on these critical 
issues.
    [The prepared statement of Chairwoman Horn follows:]

    Good morning, and welcome. I especially want to welcome our 
witnesses, thank you for being here.
    Before we begin our second hearing, I want to say it's an 
honor and a pleasure to chair this Subcommittee. Our 
investments in Space and Aeronautics are catalysts for 
discovery, innovation, and economic growth in America. I am 
grateful for the opportunity to work with Ranking Member Babin 
and all the Members as we consider the important issues before 
the Subcommittee. We began by focusing our first hearing on 
human exploration, and today we're turning our attention to 
science.
    Space science has come a long way in the sixty years since 
NASA's founding and James Van Allen's launch of Explorer 1-
America's first science satellite-in 1958. While Explorer 1 
provided initial glimpses into what could be discovered from 
vantage points above and beyond the surface of Earth, NASA's 
science spacecraft have gone on to study our Sun and every 
planet in the solar system, to look back to into the early 
Universe, and to enhance our understanding of our own planet.
    Today, NASA's Science Mission Directorate represents a $6.9 
billion investment that funds space-based and suborbital 
science missions, ground-based research, data analysis, and 
technology development. These elements support NASA's programs 
focused on planetary science, Earth science and applications, 
astrophysics, and heliophysics-the study of the Sun and its 
interactions with Earth and the solar system.
    Through these programs, scientists are seeking answers to 
fundamental questions:
    <bullet> LWhat is dark energy and, how and why is the 
Universe expanding, and at what rate?
    <bullet> LHow have the many chemical and physical processes 
that shaped the solar system evolved and interacted over time?
    <bullet> LWhat are the structure, function, and 
biodiversity of Earth's ecosystems, and how and why are they 
changing in time and space?
    <bullet> LWhat are the origins of the Sun's activity and 
how can we predict variations in the space environment?
    In pursuing answers to these and other questions, NASA's 
scientific findings, increasingly, become interwoven into our 
everyday lives-from decisions to reroute aircraft due to solar 
activity and space weather, to surveying the skies for 
potentially harmful near-Earth asteroids, to using ocean color 
and temperature maps for commercial fishery forecasting, or in 
using satellite data to assess the impacts of our changing 
climate, and much more.
    Through an organized, science community-led process known 
as the ``decadal surveys,'' NASA's Science Mission Directorate 
has benefited from a systematic approach to setting priorities 
that guide NASA's planetary, heliophysics, astrophysics, and 
Earth-science programs over ten-year periods. Not only do the 
decadal surveys guide the content of NASA's science programs, 
they also help us commit to the highest priorities identified 
by the science community. The decadal surveys keep us honest 
and focused on top priorities when funding constraints or 
competing interests arise.
    However, consistently following and implementing decadal 
priorities has not always been easy. The complexity involved in 
ambitious, large-scale missions has led, in some cases, to 
significant cost and schedule growth, so we must be vigilant in 
ensuring that NASA is as innovative in program and cost 
management as it is in advancing scientific discovery.
    How can NASA and the community both encourage ambitious, 
breakthrough science while minimizing the unanticipated costs 
and delays that may come with pushing the edges of innovation? 
And must pushing the edges of innovation and discovery always 
be equated to large and expensive missions? Or can the use of 
small satellites and CubeSats, and hosted payloads, where 
appropriate, also help us acquire scientific observations and 
measurements at lower cost?
    It is clear we have a lot to discuss, and I look forward to 
our witnesses' testimony and perspectives on these critical 
issues.

    Chairwoman Horn. The Chair now recognizes Ranking Member 
Babin for an opening statement.
    Mr. Babin. Thank you, Madam Chair. I appreciate it and 
appreciate all of you expert witnesses for your testimony.
    Year after year, NASA amazes the world with new wonders to 
behold, and the Science Mission Directorate at NASA makes that 
happen. The Hubble Space Telescope has informed our 
understanding of the age of the universe, its rate of 
expansion, and provided a breathtaking perspective of our place 
in the cosmos with its Deep Field Image.
    Other observatories like the Compton Gamma Ray Observatory, 
and the Chandra X-Ray Observatory, and the Spitzer Space 
Telescope returned stunning images of our universe's 
astronomical phenomena like supernova and neutron stars. The 
Curiosity Rover observed whirlwinds called ``dust devils'' on 
Mars and continues to search for the building blocks of life on 
the red planet. We've sent probes to every planet in our solar 
system, traveled through the rings of Saturn and landed on its 
surface with the Cassini-Huygens mission, explored Jupiter and 
its fascinating moons with the Galileo and Juno missions, and 
most recently visited Pluto with the New Horizons probe and 
revealed its heart-shaped icy surface.
    We've located, tracked, characterized, and visited 
asteroids and comets with missions like Stardust, Deep Impact, 
WISE (Wide-field Infrared Survey Explorer), and Dawn. NASA 
missions like Kepler and the TESS (Transiting Exoplanet Survey 
Satellite) discovered thousands of planets around other stars, 
some of which may be habitable zones that could harbor life. 
We've sent spacecraft like the Parker Solar Probe to 
interrogate the sun and beyond the solar system into 
interstellar space with the Voyager spacecraft.
    NASA developed the next generation of weather satellites 
for NOAA that decreases the warning time for severe weather 
events like hurricanes and tornadoes and provides reliable 
forecasts for farmers and fishermen, pilots, and every 
American. These are stunning achievements.
    However, NASA has more to offer. NASA continues to develop 
the James Webb Space Telescope (JWST), the flagship follow-on 
to the Hubble Space Telescope that stands to fundamentally 
rewrite the textbooks. The Europa Clipper mission will explore 
Jupiter's icy ocean world that has intrigued scientists because 
of its potential to harbor life. Lucy and Psyche will explore 
unique asteroids, and OSIRIS-REx will even return a sample to 
Earth. The Mars 2020 rover will also prepare and store samples 
for a future sample return mission. We live in a very exciting 
time.
    As NASA continues to awe us with scientific discoveries, we 
should be ever mindful that the Science Mission Directorate is 
also responsible for critical national missions that go beyond 
science. Congress charged NASA to find 90 percent of 140-meter 
asteroids that could harm the Earth by 2020. NASA carries out 
this vital task through SMD's Planetary Defense Coordination 
Office. NASA also operates a fleet of heliophysics spacecraft 
that informs our understanding of space weather that impacts 
everything from the electrical grid to communications and GPS 
signals. Similarly, NASA's Joint Agency Satellite Division 
manages the development of our Nation's critical weather 
satellites that serve as the very backbone of weather 
forecasting.
    The Administration's budget request for science is very 
strong. And while it is a reduction from the Fiscal Year 2019 
appropriation, it represents the highest budget request in 
history. The request was developed before the final 
appropriation for FY 2019 was even determined. If you compare 
this request to the final budget request of the Obama 
Administration, which many on this Committee supported, this 
request is much stronger. This request represents an increase 
of $1.1 billion, or 21 percent, over President Obama's last 
budget request for discretionary spending in FY 2017. That same 
FY 2017 budget request from the previous Administration 
projected a notional FY 2020 request of $5.627 billion.
    President Trump's proposed science budget is $6.39 billion. 
That is $767 million, or 13.6 percent, more than President 
Obama planned for FY 2020. This is a solid request for science 
at NASA, but that doesn't mean that we should let our guard 
down.
    Cost overruns like those experienced by JWST, the Mars 2020 
rover, and ICESat-2 (Ice, Cloud and land Elevation Satellite) 
come at the expense of other missions like WFIRST (Wide Field 
Infrared Survey Telescope) and PACE (Plankton, Aerosol, Cloud, 
ocean Ecosystem) and threaten the health of not just the 
Science Mission Directorate, but also the entire agency. And 
that's why strong leadership is required to instill discipline 
in program management early and often. Tough choices have to be 
made to ensure that overruns do not threaten the existing and 
future missions. The Nation's space science enterprise cannot 
afford to have another JWST or ICESat-2.
    And I yield back.
    [The prepared statement of Mr. Babin follows:]

    Year after year NASA amazes the world with new wonders to 
behold, and the Science Mission Directorate at NASA makes that 
happen. The Hubble Space Telescope has informed our 
understanding of the age of the universe, its rate of 
expansion, and provided a breathtaking perspective of our place 
in the cosmos with its Deep Field Image.
    Other observatories like the Compton Gamma Ray Observatory, 
the Chandra X-ray Observatory, and the Spitzer Space Telescope 
returned stunning images of our universe's astronomical 
phenomena like supernova and neutron stars. The Curiosity Rover 
observed whirlwinds called ``dust devils'' on Mars and 
continues to search for the building blocks of life on the red 
planet. We've sent probes to every planet in our solar system, 
traveled through the rings of Saturn and landed on its surface 
with the Cassini-Huygens mission, explored Jupiter and its 
fascinating moons with the Galileo and Juno missions, and most 
recently visited Pluto with the New Horizons probe and revealed 
its heart-shaped icy surface.
    We've located, tracked, characterized, and visited 
asteroids and comets with missions like Stardust, Deep Impact, 
WISE, and Dawn. NASA missions like Kepler and the TESS 
discovered thousands of planets around other stars, some of 
which may be in habitable zones that could harbor life. We've 
sent spacecraft like the Parker Solar Probe to interrogate the 
Sun, and beyond the solar system into interstellar space with 
the Voyager spacecraft.
    NASA developed the next generation of weather satellites 
for NOAA that decreases the warning time for severe weather 
events like hurricanes and tornados, provides more reliable 
forecasts for farmers, fishermen, pilots, and every American. 
These are stunning achievements.
    However - NASA has more to offer. NASA continues to develop 
the James Webb Space Telescope, the flagship follow-on to the 
Hubble Space Telescope, that stands to fundamentally rewrite 
textbooks. The Europa Clipper mission will explore Jupiter's 
icy ocean world that has intrigued scientists because of its 
potential to harbor life. Lucy and Psyche will explore unique 
asteroids, and Osiris-Rex will even return a sample to Earth. 
The Mars 2020 rover will also prepare and store samples for a 
future sample return mission. We live in an exciting time.
    As NASA continues to awe us with scientific discoveries, we 
should be mindful that the Science Mission Directorate is also 
responsible for critical national missions that go beyond 
science. Congress charged NASA to find 90 percent of 140-meter 
asteroids that could harm Earth by 2020. NASA carries out this 
vital task through SMD's Planetary Defense Coordination Office. 
NASA also operates a fleet of heliophysics spacecraft that 
informs our understanding of space weather that impacts 
everything from the electrical grid to communications and GPS 
signals. Similarly, NASA's Joint Agency Satellite Division 
manages the development of our nation's critical weather 
satellites that serve as the backbone of weather forecasting.
    The Administration's budget request for science is strong. 
While it is a reduction from the FY19 appropriation, it 
represents the highest budget request in history. The request 
was developed before the final appropriation for FY19 was 
determined. If you compare this request to the final budget 
request from the Obama Administration, which many on this 
committee supported, this request is much stronger. This 
request represents an increase of $1.1 billion (about 21 
percent) over President Obama's last budget request for 
discretionary spending in FY17. That same FY17 budget request 
from the previous Administration projected a notional FY20 
request of $5.627 billion. President Trump's proposed science 
budget is $6.39 billion. That is $767 million, or 13.6 percent, 
more than President Obama planned for FY20. This is a solid 
request for science at NASA, but that doesn't mean we should 
let our guard down.
    Cost overruns like those experienced by JWST, the Mars 2020 
rover, and ICESat-2 come at the expense of other missions like 
WFIRST and PACE and threaten the health of not just the Science 
Mission Directorate, but also the entire agency. That's why 
strong leadership is required to instill discipline in program 
management early and often. Tough choices have to be made to 
ensure that overruns do not threaten existing and future 
missions. The nation's space science enterprise can't afford to 
have another JWST or ICESat-2.

    Chairwoman Horn. Thank you, Mr. Babin.
    The Chair now recognizes the Chairwoman of the Full 
Committee, Ms. Johnson, for an opening statement.
    Chairwoman Johnson. Thank you very much, and good morning, 
Madam Chair, for holding this hearing on ``Discovery on the 
Frontiers of Space: Exploring NASA's Science Mission.''
    Scientific research has been part of NASA's mission since 
the agency's founding. The National Aeronautics and Space Act 
of 1958--the expansion of human knowledge, a phenomena in the 
atmosphere and space and one of the eight objectives of the 
Nation's aeronautical and space activities.
    Since the 1958 Act, NASA and the Nation have invested in 
the systematic scientific exploration of our planet, bodies in 
the solar system, the Sun, and the universe that have answered 
many questions, and generated many more. That scientific 
exploration has come with surprises. For example, who would 
have imagined that Pluto may be--may have active volcanoes 
spewing ice or that there is a mysterious force causing our 
universe to expand at an accelerating rate?
    NASA has been at the forefront of discoveries such as these 
in space and Earth science since its inception with a cadence 
of small, medium, and large missions and supporting research 
and technology that keep the public engaged, inspired, and 
learning.
    That's why it perplexes me as to why the Administration 
would even consider raiding Science to pay for a Moon program. 
Yet that may be where NASA is headed, despite the 
Administration--Administrator's assurances to the contrary. The 
1-year budget amendment that came over in May would give the 
Administrator carte blanche authority to move funds among 
NASA's accounts from this year forward if he determines that 
the transfers are necessary in support of establishment of a 
U.S. strategic presence on the Moon. Why? Because the 
Administration, it seems, may not request in the coming years 
what NASA actually needs for its crash program to get 
astronauts to the Moon by 2024.
    According to media articles, NASA officials are stating 
that hard choices lie ahead and that NASA find money for the 
Moon program from within the agency's other programs. This 
isn't a new tactic. The George W. Bush Administration, which 
initiated the last Moon program, tried the same approach. 
According to a 2006 National Academies report, the Bush 
Administration indicated its intention to cut significantly 
from Science to pay for its Moon program. The scars from those 
cuts are still felt today, especially in the life and physical 
sciences research program, which experienced reductions that 
decimated the pipeline of microgravity research and drove 
scientists to other fields.
    The talented women and men at NASA and its partner 
institutions deserve better. Those who have become acquainted 
with the NASA workforce know that they will work tirelessly in 
an effort to meet a goal. Passion can take us so far, but it 
alone can't build the rockets and the landers, the spacesuits 
and the habitats, and all of the other elements needed for a 
safe and sustainable Moon-Mars program. NASA needs a solid 
plan, sufficient resources, people, and infrastructure over 
multiple years to enable deep space human exploration. Starving 
science to fund human exploration is not the answer.
    I know our witnesses will have much to say about the 
opportunities and challenges facing NASA's space and Earth 
sciences, and I look forward to your testimony. I thank you and 
yield back.
    [The prepared statement of Chairwoman Johnson follows:]

    Good morning, and thank you Madame Chair for holding this 
hearing on ``Discovery on the Frontiers of Space: Exploring 
NASA's Science Mission.''
    Scientific research has been part of the NASA mission since 
the agency's founding. The National Aeronautics and Space Act 
of 1958 includes ``The expansion of human knowledge of 
phenomena in the atmosphere and space'' as one of the eight 
objectives of the nation's aeronautical and space activities.
    Since the 1958 Act, NASA and the nation have invested in 
the systematic scientific exploration of our planet, bodies in 
the solar system, the Sun, and the Universe that have answered 
many questions, and generated even more. That scientific 
exploration has come with surprises. For example, who would 
have imagined that Pluto may have active volcanoes spewing ice? 
Or that there is a mysterious force causing our Universe to 
expand at an accelerating rate?
    NASA has been at the forefront of discoveries such as these 
in space and Earth science, since its inception, with a cadence 
of small, medium, and large missions and supporting research 
and technology that keep the public engaged, inspired, and 
learning. That's why it perplexes me as to why the 
Administration would even consider raiding Science to pay for a 
Moon program. Yet that may be where NASA is headed, despite the 
Administrator's assurances to the contrary.
    The one-year budget amendment that came over in May would 
give the Administrator carte blanche authority to move funds 
among NASA's accounts from this year forward, if he determines 
that "the transfers are necessary in support of establishment 
of a U.S. strategic presence on the Moon." Why? Because the 
Administration, it seems, may not request in the coming years 
what NASA actually needs for its crash program to get 
astronauts to the Moon by 2024. According to media articles, 
NASA officials are stating that hard choices lie ahead and that 
NASA find money for the Moon program from within the agency's 
other programs.
    This isn't a new tactic. The George W. Bush Administration, 
which initiated the last Moon program, tried the same approach. 
According to a 2006 National Academies report, the Bush 
Administration indicated its intention to cut significantly 
from Science to pay for its Moon program. The scars from those 
cuts are still felt today, especially in the life and physical 
sciences research program, which experienced reductions that 
decimated the pipeline for microgravity research and drove 
scientists to other fields.
    The talented women and men at NASA and its partner 
institutions deserve better. Those who have become acquainted 
with the NASA workforce know that they will work tirelessly in 
an effort to meet a goal. Passion can take us far, but it alone 
can't build us the rockets and landers, space suits and 
habitats, and all the other elements needed for a safe and 
sustainable Moon-Mars program.
    NASA needs a solid plan, sufficient resources, people, and 
infrastructure over multiple years to enable deep space human 
exploration. Starving Science to fund human exploration is not 
the answer. I know our witnesses will have much to say about 
the opportunities and challenges facing NASA's space and Earth 
sciences. I look forward to their testimony.
    Thank you and I yield back.

    Chairwoman Horn. Thank you, Madam Chairwoman.
    If there are any other Members who wish to submit 
additional opening statements, your statements will be added to 
the record at this point.
    At this time, I would like to introduce our witnesses 
today. Our first witness is Dr. Thomas Zurbuchen. Since 
October, Dr. Zurbuchen has served as the Associate 
Administrator for NASA's Science Mission Directorate. 
Previously, Dr. Zurbuchen was a Professor of Space and 
Aerospace Engineering at the University of Michigan in Ann 
Arbor. He was also the university's founding Director of the 
Center for Entrepreneurship in the College of Engineering.
    Dr. Zurbuchen's experience includes research in solar and 
heliospheric physics--that's a mouthful--experimental space 
research, space systems, and innovation and entrepreneurship.
    During his career, Dr. Zurbuchen has been involved with 
several NASA science missions: Ulysses, the MESSENGER 
spacecraft to Mercury, and the Advanced Composition Explorer. 
He has also been part of two National Academies' standing 
committees, as well as various science and technology 
definition teams for new NASA missions.
    Dr. Zurbuchen earned his master of science and Ph.D. in 
physics from the University of Bern in Switzerland.
    Our next witness is Dr. Chelle Gentemann. Dr. Gentemann is 
a Senior Scientist at Earth and Space Research, a nonprofit 
research institute in Seattle, Washington, and an affiliate of 
the University of Washington.
    Previously, Dr. Gentemann served as a visiting scholar to 
the NASA Jet Propulsion Laboratory and Senior Principal 
Scientist at Remote Sensing Systems. Dr. Gentemann is currently 
the Co-Chair of the standing committee on Earth Science and 
Applications from Space and is on the Academies' Intelligence, 
Science, and Technology Experts Group. Her most recent research 
focuses on using cloud computing, open-source software 
development, machine learning, and algorithm development using 
remote sensing data, air-sea interactions, and upper ocean 
physical processes.
    Dr. Gentemann received her bachelor's degree in science 
from the Massachusetts Institute of Technology, a master of 
science in physical oceanography from the Scripps Institution 
of Oceanography, and a doctorate in meteorology and physical 
oceanography from the University of Miami. Welcome.
    Our third witness is Dr. David Spergel. Dr. Spergel is the 
Charles Young Professor of Astronomy at Princeton University. 
He is the founding Director of the Center for Computational 
Astrophysics at the Flatiron Institute. Dr. Spergel is the 
former Chair of the Space Studies Board and is currently the 
Co-Chair of the Wide Field Infrared Survey Telescope, WFIRST, 
science team. Dr. Spergel's work is focused on using laboratory 
experiments and astronomical observations to probe the nature 
of dark matter and look for new physics.
    Dr. Spergel earned his bachelor's degree from Princeton 
University and his doctorate in astronomy from Harvard 
University.
    Our fourth and final witness is Dr. Mark Sykes. Dr. Sykes 
is the Chief Executive Officer and Director of Planetary--of 
the Planetary Science Institute. He has served as the Chair of 
the Division for Planetary Sciences of the American 
Astronomical Society. He is also Co-Investigator on the NASA 
Dawn mission project to the asteroid Vesta and the dwarf planet 
Ceres.
    He received his bachelor's in physics from the University 
of Oregon where he studied the first known black hole system, 
Cygnus X-1. He received a master of electronic science from 
Oregon Graduate Center and a Ph.D. in planetary sciences from 
the University of Arizona.
    Welcome to all of you. As our witnesses, you should know 
that you will each have 5 minutes for your spoken testimony, 
and your full written testimony will be included in the record 
for the hearing. When you have completed your spoken testimony, 
we will begin with questions from each Member, and each Member 
will have 5 minutes on--to question the panel.
    We will start today with Dr. Zurbuchen. Dr. Zurbuchen.

              TESTIMONY OF DR. THOMAS H. ZURBUCHEN,

                    ASSOCIATE ADMINISTRATOR,

               SCIENCE MISSION DIRECTORATE, NASA

    Dr. Zurbuchen. Thanks so much. Chair Horn, Ranking Member 
Babin, and Members of the Subcommittee, I'm pleased to testify 
today. I want to thank you for your commitment to NASA and to 
NASA science.
    We'll discuss how this FY 2020 budget request enables us to 
succeed in three strategic focus areas: Advancing national 
exploration goals, maintaining a balanced science program, and 
delivering true impact through our investments. Regarding 
advancing national exploration goals, Artemis is NASA's lunar 
exploration program that will send humans to the Moon by 2024, 
develop a sustainable human presence there in 2028, and set the 
stage for human exploration of Mars, the ultimate goal of 
NASA's human exploration program.
    Robotic missions delivered by commercial landers will be 
the first Artemis elements to land on the Moon. Through NASA 
Science's CLPS (Commercial Lunar Payload Services) initiative, 
we are incentivizing speed and drawing on our commercial and 
international partners to enable science investigations and 
technology demonstrations on the Moon ahead of human return.
    We recently selected three commercial Moon landing service 
providers for the earliest missions in 2020-2021. These 
missions will acquire new science measurements and enable 
important technology demonstrations to provide data that will 
inform future exploration systems needed for astronauts. The 
amended budget request also includes $90 million for the 
purchase of a commercial service--commercial services to 
deliver a rover to the Moon.
    SMD is committed to executing a balanced and integrated 
science program that is informed by the decadal surveys of the 
National Academies. In planetary science, NASA's robust Mars 
program is providing groundbreaking science and exploration 
information. This request supports continued progress of the 
Mars 2020 rover, which will search for the evidence of life on 
the red planet and collect a cache of samples. With this 
request, NASA will start development of a Mars sample return 
mission, completing the first round-trip to another planet.
    In parallel, the cutting-edge Europa Clipper, a strategic 
mission to fly to Jupiter's moon, will be our first step in 
exploring ocean worlds and their potential habitability for 
extraterrestrial life. Competitively selected missions like 
OSIRIS-REx and the Mars lander InSight are critical ingredients 
to our program, as are the Psyche and Lucy missions to explore 
distant asteroids.
    In astrophysics, the budget supports the revised launch 
date of James Webb, the largest and most powerful space 
telescope to date. Webb will examine the first galaxies that 
formed in the atmospheres of nearby planets outside our solar 
system. After the successful planet-counting mission Kepler, we 
are now focused on TESS which will provide a rich catalog of 
worlds around nearby stars including valuable targets for Webb 
to explore in the future.
    In August 2018, our heliophysics program launched Parker 
Solar Probe. Parker has already completed two of its 24 near-
solar passes flying to within 15 million miles of our star, the 
sun. We recently selected the IMAP (Interstellar Mapping and 
Acceleration Probe) mission that will image the outer boundary 
of the sphere of influence of our sun.
    In 2018, NASA launched two strategic missions recommended 
by the Earth-science decadal. GRACE Follow-On is measuring the 
mass of ice sheets and glaciers and tracking Earth's water 
movements across the planet, while ICESat-2 is providing 
unprecedented data on the typogography of ice--topology, of 
course, interesting word--of ice, forests, and oceans. 
ECOSTRESS (ECOsystem Spaceborne Thermal Radiometer Experiment 
on Space Station) and GEDI (Global Ecosystem Dynamics 
Investigation) are now on the ISS (International Space Station) 
measuring agricultural water use and drought conditions, as 
well as creating 3-D maps of the world's forests. The request 
funds continue progress on Landsat 9 for a launch in '21 
together with our U.S. Geological Survey (USGS) partners.
    NASA's Earth science continues using innovative 
partnerships and new approaches, including the acquisition of 
commercial data products from small satellite constellations. 
Our work has societal value to the U.S. and beyond. Our Earth 
science program teams with partners to develop and demonstrate 
applications in areas like disaster management, public health 
and resource management to provide direct benefit to our 
Nation. Heliophysics-funded research enables the predictions 
necessary to safeguard life and society on Earth and the 
outward journey of humans and robotic explorers.
    And in addition, NASA looks for near-Earth objects (NEOs) 
to assess if they pose any threat to us. We found 96 percent of 
the potentially hazardous NEOs that are over 1 kilometer in 
diameter, and one-third of those at 140 or more. The request 
funds the technology to deflect such bodies using the DART 
(Demonstration for Autonomous Rendezvous Technology) mission.
    With this request, SMD will help pave the way for the 
success of Artemis program, initiate the first round-trip 
mission to the red planet with a Mars sample return mission, 
and continue investing in the groundbreaking work of our 
scientists, engineers, and technologists to--every day to 
answer humanity's most fundamental questions and to inspire 
learners of all ages.
    Thank you for the opportunity to testify here today.
    [The prepared statement of Dr. Zurbuchen follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairwoman Horn. Thank you, Dr. Zurbuchen. Dr. Gentemann.

              TESTIMONY OF DR. CHELLE L. GENTEMANN,

          SENIOR SCIENTIST, EARTH AND SPACE RESEARCH,

            AND CO-CHAIR, COMMITTEE ON EARTH SCIENCE

       AND APPLICATIONS FROM SPACE, SPACE STUDIES BOARD,

                 NATIONAL ACADEMIES OF SCIENCES,

                   ENGINEERING, AND MEDICINE

    Dr. Gentemann. Thank you. Chairwoman Horn, Ranking Minority 
Member, and Members of the Committee, I want to thank you for 
the opportunity to testify today.
    As Chairwoman Horn said, I am Co-Chair of the National 
Academies' standing Committee on Earth Science and Applications 
from Space, CESAS. However, the opinions that I express today 
should be attributed to me unless stated otherwise.
    CESAS produced the most recent 10-year roadmap or decadal 
survey to guide U.S. investments in Earth systems science for 
societal benefit. It's charged with monitoring the progress in 
the implementation of the decadal survey's recommendations. The 
decadal survey discusses in detail the benefits to the Nation 
from a robust Earth science program at NASA, NOAA (National 
Oceanic and Atmospheric Administration), and USGS. Drawing on 
their own expertise and hundreds of solicited concept proposals 
and white papers from the community, about 100 of the Nation's 
leading Earth scientists, space system engineers, and policy 
experts worked for almost 2 years to develop a consensus on 
Earth-science priorities.
    The survey made recommendations for the programs of all of 
its sponsors, but I will focus on those directed at NASA today. 
Most importantly, these are to complete the series of existing 
or previously planned observations from the 2007 survey called 
the Program of Record. To implement the designated essential 
observations, which are cost-capped medium- and large-size 
observing systems, to implement Earth System Explorer high-
priority observations, which are cost-capped medium-size 
observing systems, to create a new program element called 
Incubator to advanced future capabilities and to continue the 
cost-capped Earth Venture line from the 2007 decadal, along 
with the addition of a new element called Continuity designed 
to facilitate development of low-cost means to sustain critical 
observations. The survey report presents a plan for an 
integrated program.
    Completing the Program of Record is important because the 
decadal survey recommendations assume and build on this 
baseline from the 2007 decadal survey. The Program of Record 
includes both PACE and CLARREO (Climate Absolute Radiance and 
Refractivity Observatory) Pathfinder. Elimination of these 
missions in the Program of Record undermines the entire decadal 
survey planning and prioritization process.
    PACE supports multiple research thrusts and is a key 
element in the survey's planned constellation of satellites 
that will give scientists and policymakers a clearer 
understanding of how to use Earth systems science for societal 
benefit.
    CLARREO Pathfinder will provide the ability to 
intercalibrate instruments in space at accuracies 5 to 10 times 
beyond current capabilities.
    Implementation of the full recommended program will require 
appropriations beyond that assumed by the decadal survey 
committee. In particular, additional funds would be needed to 
complete the full suite of designated, essential, and Earth 
System Explorer high-priority observations, as planned. These 
are foundational observations selected to ensure that the 
survey's highest priority science and application questions can 
be effectively addressed.
    Finally, I note that the decadal survey process began in 
2015. Rapid advancements in using commercial cloud computing 
and open-source software for science have outpaced planned 
activities. The survey didn't plan for the additional resources 
needed for a wholesale move of NASA data assets onto the cloud, 
support for the open-source software libraries that underpin 
the rapid scientific advancements and possible applications, or 
how to enable interdisciplinary science and commercial 
applications that will likely subsequently flourish.
    In my view, this is one example of where comparatively 
small new investments have the potential to deliver outsized 
benefits. NASA's vast data resources and robust research 
community make it well poised to be a global leader in this 
effort. Jumpstarting these activities in NASA could grow the 
public-private cloud partnership and energize the research 
community.
    As you consider NASA's reauthorization, I hope that the 
Committee sees the value of the decadal survey process and 
provides the funding to implement the decadal survey, including 
the Program of Record and both designated and Earth Explorer 
observables, as recommended.
    Thank you for your time.
    [The prepared statement of Dr. Gentemann follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairwoman Horn. Thank you, Dr. Gentemann. Dr. Spergel.

                 TESTIMONY OF DR. DAVID SPERGEL,

             CHARLES YOUNG PROFESSOR OF ASTRONOMY,

              PRINCETON UNIVERSITY, AND DIRECTOR,

             CENTER FOR COMPUTATIONAL ASTROPHYSICS,

             FLATIRON INSTITUTE, AND FORMER CHAIR,

            SPACE STUDIES BOARD, NATIONAL ACADEMIES

             OF SCIENCES, ENGINEERING, AND MEDICINE

    Dr. Spergel. I want to thank Chairwoman Horn and the 
Committee for this opportunity to speak. I'm David Spergel, a 
Princeton Professor, Director of the Center for Computational 
Astrophysics, and the past Chair of the Space Studies Board. 
While these experiences inform my testimony, these views are my 
own.
    Many of NASA's most important activities from Mars 
exploration to studying extrasolar planets to understanding the 
cosmos are centuries-long projects, the modern version of the 
construction of the great medieval cathedrals. The decadal 
surveys provide blueprints for constructing these cathedrals, 
and NASA science has thrived by being guided by these plans.
    Monitoring our rapidly changing planet is both a great 
scientific challenge and a pressing societal need. ``Thriving 
on a Changing Planet: A Decadal Strategy for Earth Observations 
from Space'' identifies the highest priority study areas, the 
most important observables, and recommends structuring new NASA 
missions accordingly. I want to reinforce Dr. Gentemann's 
comments and urge the Committee to charge NASA to implement 
these priorities. Addressing climate change begins with 
deepening our understanding of Earth.
    The search for life is another grand challenge. Within our 
own solar system, we have learned that water is everywhere. 
Comets bring water to the Moon and to Mercury. Mars not only 
has a wet past but still has liquid water today. Outer planet 
moons such as Europa host vast oceans beneath their icy shells, 
a discovery that suggests new potential habitable destinations. 
Did any of these systems once host life? Do they host life 
today?
    To answer these questions, NASA is in the midst of a set of 
interlocking missions exploring the red planet. As outlined in 
the Planetary Decadal Survey, the Mars 2020 mission is the next 
step in this program, culminating with the return of carefully 
selected samples from Mars. NASA's also making progress in 
building the Europa Clipper. The Planetary Decadal Survey, 
however, did not identify a major investment in studying the 
lifeless Moon as one of its highest priorities. I'm concerned 
that high-priority SMD programs will be terminated to enable 
lower-priority science and accelerating the lunar program.
    Understanding the dominant component of our universe, dark 
energy, is another grand challenge. Both Europe and China are 
leading missions to study it. Fortunately, enabled by 
congressional support, NASA continues to move forward with 
WFIRST, the Astronomy Decadal's top priority dark energy 
mission. As Co-Chair of its science team, I'm happy to say that 
WFIRST is meeting its technical requirements and is on track 
for a 2025 launch and on budget.
    Now, all of these missions are enabled by technology 
developed both internally within NASA and by external advances. 
Regrettably, the Space Technology Mission Directorate is 
reducing these long-term investments for its future science 
missions and is focusing its resources toward the short-term 
goal of Moon 2024. This is eating the seed corn of future 
projects.
    New commercial advances are offering NASA new opportunities 
for innovation. The desire to build self-driving cars advances 
autonomous systems. The machine-learning revolution provides 
novel tools both for analyzing Facebook images and NASA images. 
GPUs (graphics processing units) are now pushing high-
performance computing hardware. Open-code development is 
driving innovation across industry and academia. NASA and the 
science community needs to be open to these new innovation 
sources.
    While NASA does face immediate challenges like successfully 
completing and launching JWST, this is an incredibly exciting 
time for science. NASA satellites have discovered thousands of 
exoplanets and detected the brilliant flash from the merger of 
two neutron stars. NASA has launched a satellite that will 
literally touch the sun. NASA's exploration of our solar system 
is revealing new insights into our origins. Its satellite 
observations are deepening our understanding of the rapidly 
changing Earth. Most importantly, each of these discoveries 
raises new questions that drive science forward. These 
discoveries were enabled by an agency guided by the community 
science priorities through the decadal surveys, and I urge you 
to continue to let these surveys guide our science programs.
    Thank you.
    [The prepared statement of Dr. Spergel follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairwoman Horn. Thank you, Dr. Spergel. Dr. Sykes.

                  TESTIMONY OF DR. MARK SYKES,

                EXECUTIVE OFFICER AND DIRECTOR,

                  PLANETARY SCIENCE INSTITUTE

    Dr. Sykes. Chairwoman Horn, Ranking Member Babin, Members 
of the Committee, and Chairwoman Johnson, thank you for the 
opportunity to appear before you today.
    As a former Chair of the NASA Small Bodies Assessment 
Group, I would like to begin by congratulating Dr. Zurbuchen on 
Administrator Bridenstine's recent announcement that NASA will 
be proceeding with the Near-Earth Object Camera mission, 
NEOCam. This space-based infrared survey of near-Earth 
asteroids and beyond has been a high priority for science, 
planetary defense, space resource utilization, and targets for 
human exploration for almost a decade.
    This mission would not exist but for the vision, 
leadership, and shear management skills of the NEOCam P.I. 
(Principal Investigator), Dr. Amy Mainzer. Leveraging her 
experience as P.I. of the NEOWISE mission, Dr. Mainzer has 
spent 15 years building a team and a mission that promises 
remarkable discoveries, the retirement of the congressional 
mandate to find those objects that threaten our planet, and the 
necessary groundwork for expanding the future of our species in 
space. Dr. Mainzer is a role model not just for young women who 
aspire to have careers in science for young men as well.
    I would like to--now to address the Administration's 
initiative to return to the Moon by 2020. In the President's 
proposed Fiscal Year 2020 budget amendment to NASA, the 
Administration asks for the authority, quote, ``to transfer 
funds between appropriations accounts in the event that the 
Administrator determines that the transfers are necessary in 
support of establishment of a U.S. strategic presence on the 
Moon.'' The language authorizes transfers in this fiscal year 
and in subsequent fiscal years, including funds appropriated in 
prior acts. This is a disturbing request. It appears to allow 
for the complete reorganization of the agency, including 
expunging space science if desired, without any congressional 
oversight. This must be rejected.
    On a more positive note, science provides essential support 
to human exploration. Scientists are the pathfinders literally. 
They define where we can go and what we can strive to do there. 
They determine the operational environment, the resources, and 
the hazards.
    We should establish a dedicated science support team for 
human lunar operations. This should consist of lunar experts, 
as well as heliophysicists. Their purpose is not to do 
independent research but to marshal our rich data and knowledge 
of the Moon and its environment to support human operations, to 
anticipate their needs, to participate in planning, and to 
identify what new information is needed and how best and most 
cost-effectively to obtain it in a timely fashion.
    I support the President's request to fund a lunar rover--at 
least one. It should be deployed in advance of our return to 
the Moon, particularly if there's desire to establish a long-
term operational presence. The choice of a location at the 
South Pole is in part to access craters having permanently 
shadowed regions containing evidence for water ice. A rover is 
needed to assay any water ice and to inform us about what kind 
of resource recovery and processing would be required. In the 
meantime, we also need to study and mitigate the impact of 
human operations on the lunar environment, particularly its 
exospheric atmosphere.
    Finally, every day, discoveries are being made not just by 
operating spacecraft but by work funded by NASA research and 
data analysis programs. These programs lay the foundation and 
justification for future missions. They provide a continuing 
return on investment on these missions by generating new 
knowledge even decades after the data was taken. These are core 
programs, and I'm concerned that they are not being supported 
at the levels recommended by the Planetary Decadal Survey.
    I'm further concerned about the extent to which resources 
from these programs are being funneled to NASA center 
scientists without competition according to public statements, 
at times inconsistent, by NASA officials. The details of this 
program, including its costs and impact on resources for 
competed research programs need to be investigated and made 
public.
    I believe that the American taxpayers deserve the most bang 
for the buck from their federally funded research programs. The 
core of that is competition. Scientists compete for grants and 
contracts all the time. It is not for the faint of heart. But 
competition is further undermined when NASA--I believe alone 
among other Federal agencies--hides cost information from 
proposal review panels and directs them not to take cost into 
consideration in their assessment of proposed research. This 
started before Dr. Zurbuchen's arrival. We need to look at the 
buck and not just the bang. And the subject-matter experts on 
review panels are in the best position to provide that 
assessment to selecting officials.
    The United States has defined the forefront of solar system 
exploration for more than half a century, but we cannot take it 
for granted. Thank you.
    [The prepared statement of Dr. Sykes follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairwoman Horn. Thank you, Dr. Sykes, and thank you to all 
of our witnesses.
    We will now begin the first round of questions, and the 
Chair recognizes herself for 5 minutes.
    Doctors Spergel, Gentemann, and Sykes, the Subcommittee 
will be working to reauthorize NASA in the coming months. What 
are your top three priorities for NASA reauthorization and why?
    Dr. Gentemann. I'll start. As I said in my statement, it's 
to complete the Program of Record, to fund the designated 
observables, essential observations, and the Earth System 
Explorer high-priority observations.
    Completing--following the decadal survey and why is because 
following the decadal survey recommendations is based on a huge 
community effort to maximize the societal benefit from Earth 
science observations, and this is the program that has been 
recommended to do so. Thank you.
    Chairwoman Horn. Thank you. Dr. Spergel?
    Dr. Spergel. My first--top priority would be to implement 
the priorities of the decadal surveys in Earth science, 
heliophysics, planetary science, and astrophysics. Another 
priority would be to assure that the STMD continues to make 
investments in science and developing technology for science.
    Chairwoman Horn. Thank you. Dr. Sykes?
    Dr. Sykes. Similarly, I think that we need to pay attention 
to the decadal recommendations of the--of having a balanced 
portfolio. Too much is often--attention is placed to the most 
expensive flagship missions which have the most cost 
volatility, and then we tend to lose the Discovery missions, 
the New Frontiers, the competed missions, which are cost-
capped.
    So there's a recommended cadence for these smaller 
missions. I think that needs to have more attention paid to it, 
and likewise, the smallest programs, the research and data 
analysis programs, need to be adequately--perhaps better than 
adequately funded because this is the foundation of our U.S. 
solar system exploration program.
    Chairwoman Horn. Thank you. Dr. Zurbuchen, Administrator 
Bridenstine has stated publicly that he doesn't intend to 
redirect funds from other programs such as science to pay for 
the Moon initiative. However, as noted by Chairwoman Johnson, 
the Administration's budget amendment that was sent to Congress 
would, and I quote--and Dr. Sykes expressed concern about this 
as well--``authorize the National Aeronautics and Space 
Administrator to transfer funds between appropriations accounts 
in the event that the Administrator determines the transfers 
are necessary in support of establishment of the U.S. strategic 
presence on the Moon.''
    In addition to a recent article in Ars Technica, it quotes 
a NASA official as stating, ``I don't think we're going to be 
able to get the entire budget as new money. We're going to have 
to look for some efficiencies and make some cuts internal to 
the agency, and that's where it's going to be hard.''
    Dr. Zurbuchen, are you currently planning or engaged in 
planning for scenarios for current or future cuts, delays, or 
deferrals or reductions in scope to Science Mission Directorate 
programs or missions for FY 2021 and beyond to fund the Moon-
Mars 2024 program?
    Dr. Zurbuchen. Our budget process for FY 2021 has just 
started, and I have not been directly engaged in any scenario 
planning with a massive downside to the science program.
    Chairwoman Horn. OK. Thank you. If you were to have to look 
at those cuts, what would the potential for those cuts mean for 
the science programs and the balance within the science 
programs?
    Dr. Zurbuchen. The way I have implemented every cut, also 
every upper, relative to a budget that I had before, is that I, 
and our team--and the Administrator has been very supportive in 
public as well as, you know, in our own meetings--we use the 
decadals to accommodate both uppers and cuts relative to that. 
That will mean, for example, that we actually protect the R&A 
programs with the highest priority, for example, in planetary, 
as in heliophysics. It would mean that we protect P.I.-class 
missions kind of over others and so forth.
    That of course always comes with an asterisk. For example, 
when you have a launch window of a mission next year, it is 
unreasonable through the eyes of a taxpayer to take money out 
of that mission. It's much better to launch it instead of 
spending a half-a-billion dollars after the fact because of the 
fact that you moved some money out, $50 million or something. 
So it's with that caveat that we're using the decadal guidance.
    Chairwoman Horn. Thank you, Dr. Zurbuchen. I have more, but 
I'll save it for the next round. I see my time is up. Ranking 
Member.
    Mr. Babin. Thank you, Madam Chair.
    Dr. Zurbuchen, NASA recently awarded contracts to three 
companies as part of the commercial lunar payload services that 
will deliver landers to the Moon's surface. A condition of the 
procurement stipulates that awardees must be U.S. companies. 
One of the companies that won a contract features a design team 
from India that competed in the Google Lunar XPRIZE. A recent 
article by Quartz was titled, ``America's First Private Moon 
Lander Will Be Engineered in India.''
    While this partnership appears to comply with NASA 
solicitation, the optics obviously are not good. Can you assure 
the U.S. taxpayer that we aren't simply outsourcing space 
exploration when we have companies designing lunar landers 
right here in America?
    Dr. Zurbuchen. Thank you for that question. Of course, you 
recognize that there's three selections we made, including two 
where such questions did not come up. The one that you're 
talking about, this particular company, before we spend any 
dollars on it, has to undergo a full review of the very 
question you're asking. We already told them; we actually 
reviewed it at the beginning and we want to use the very same 
rules that we're using for launch vehicles as well that 
basically stipulate that the majority of all of the 
manufacturing and design of this particular lander has to be 
done in the U.S. We're going to go through one more review, an 
in-depth review to ensure that very fact.
    Mr. Babin. OK. Thank you. And, Dr. Sykes, we often hear 
that NASA should have a balanced science portfolio. However, 
other agencies like NOAA fund Earth-science activities. The NSF 
(National Science Foundation) funds astronomy, and NOAA and the 
Department of Defense fund heliophysics. How important is NASA 
funding to the planetary science community, and are there other 
significant sources of funding for planetary science other than 
NASA?
    Dr. Sykes. Mr. Ranking Member, yes, that's a very important 
question. The planetary science community kind of stands out 
from these other communities because planetary science in the 
modern age is the creation of NASA. Astronomy was around for 
hundreds of years and is deeply embedded in universities. 
Heliophysics has communication concerns about space weather. 
There's industry and large industries associated with the 
important areas of Earth science.
    Planetary really has NASA as its sole customer, and so NASA 
funding for our space exploration enterprise is basically the 
only market in town, and so the stability of that funding and--
is critical for maintaining our ability to engage in that 
activity into the future.
    Mr. Babin. OK. And then, Dr. Zurbuchen, one more time, I 
represent Johnson Space Center, home of the Astromaterials 
Acquisition and Curation Office that documents, preserves, and 
prepares samples from the Moon, asteroids, comets, solar wind, 
and Mars. Is this office prepared to receive new lunar samples 
from future missions, or would additional resources be 
necessary to fully study these very important artifacts?
    Dr. Zurbuchen. We are currently actually kicking off an 
analysis of that very question. See, there are samples that 
will come back with two characteristics we have not had before. 
Our first type of sample, especially from the southern areas of 
the Moon or the polar areas of the Moon I should say, because 
the north also has them----
    Mr. Babin. Right.
    Dr. Zurbuchen [continuing]. Are cold samples, so cryo-type 
of samples that we want to bring back and hold there. Those are 
samples the likes of which we have not had before. The second 
type of sample that we're thinking about is coming back from 
areas where we want to analyze biology potential or at least 
the transition of chemistry to biology. In both cases we 
believe there's additional investments required, and we want to 
work with the Center to that. I already informed the Senate 
Director that that will occur.
    Mr. Babin. OK. And last, Dr. Sykes again, NASA plans on 
leveraging public-private partnerships to explore the Moon. 
They've also stated that they will take a more commercial 
approach. What customer other than NASA do you see on the 
horizon that would make this commercial?
    Dr. Sykes. Well, everything's commercial at the end, 
Congressman. I think that's this is a new path for developing 
new vendors for the government. We've had the innovations by 
SpaceX and other companies that have developed rockets outside 
of the normal process and given us some great products that we 
could purchase. But at the moment the only customer that I 
see--and I can be wrong--for what's being done right now under 
the, quote, commercial thing is with the government as the 
primary customer.
    Mr. Babin. OK. Thank you, and I yield back.
    Chairwoman Horn. Thank you, Ranking Member Babin.
    The Chair recognizes Chairwoman Johnson for 5 minutes.
    Chairwoman Johnson. Thank you very much.
    Dr. Spergel, in your written statement, you noted the 
impressive work of other nations in pursuing missions to study 
dark energy, one of the highest priority questions about the 
nature of the universe. Could you elaborate on your comment? 
And do you have any concerns regarding the state of the U.S. 
astrophysics or science in general as compared to other 
nations?
    Dr. Spergel. Well, there are two important missions. One is 
the European Space Agency's Euclid mission. Now, this falls in 
the category of something we've done a lot of, which is working 
together with the Europeans. We're a partner in the Euclid 
mission and are providing key components, and American 
scientists will participate in the Euclid work. And we've been 
designing the WFIRST mission to be complementary to the Euclid 
mission to carry out a science program that goes beyond Euclid 
and also complements it.
    Perhaps of more concern is the Chinese space program. The 
Chinese are building a 2-meter optical telescope that will fly 
on their space station and are flying a large camera with that. 
Like us with WFIRST, they are taking advantage of technologies 
developed by their defense industries. And in one hand I think 
it's very good to see the Chinese starting to play a role in 
fundamental science. On the other hand, I think it's concerning 
that we might end up yielding leadership in an area where--you 
know, dark energy is something that was discovered by American 
scientists, and a lot of important work is being done here--to 
China.
    And I see the Chinese universities trying to attract really 
outstanding people from the United States. I see them making 
big investments, and I think it's important that we maintain 
our leadership in science and technology, and I think that's 
why--one of the reasons why it's important that we continue to 
invest and push forward with projects like the WFIRST mission.
    Chairwoman Johnson. Thank you. Any other comments from the 
other panelists?
    Dr. Sykes. Congresswoman, I think that one thing we also 
need to keep in mind is that, yes, China is coming up, and 
they're becoming involved in all areas of space exploration. 
Their Chang'e missions have been very impressive, and what 
they're planning for the future will also be. But we need to be 
a leader not because we want to stay ahead of the other guy and 
let the other guy define the directions that we go in just to 
keep ahead, but we do it because it's good for our self, it's 
good for our economy, it's good for our society to continue to 
invest in these broad range across Earth science and 
astrophysics and heliophysics and planetary science to 
understand the world that we live in and to--you know, because 
as we pull back from that, you know, as evidenced by like 
trying to cut back on science team support for missions and 
things like that to--kind of nickel-and-diming things down, not 
that I'm advocating just throwing money at things, but to 
really be making solid investments in these areas, you know, 
that we will fall behind, and other nations will push ahead. 
You know, and they're not doing it to just get ahead of us. 
They're doing it for their own purposes, and we should be 
likewise deciding what our purposes are and pursuing them 
vigorously.
    Chairwoman Johnson. Thank you. Yes?
    Dr. Gentemann. I'd also like to add that in Earth science 
there's a similar situation which is the Chinese have a very 
robust Earth-observing satellite program, which is in contrast 
to our program where we're considering reducing the Program of 
Record and not following the decadal survey guidelines to do 
the essential and high-priority observations. China is 
launching Earth-observing satellite after Earth-observing 
satellite and working with Europe to establish leadership. And 
I would like--I hope that the U.S. continues our investment in 
Earth science so that we can remain a global leader in this 
area for--and it's for our societal benefit.
    Chairwoman Johnson. Thank you.
    Dr. Sykes. Congresswoman, if I can make one more comment, I 
don't see China as a threat. I see them as a potential partner 
in a lot of these areas, a partner for advancing what we want 
to do. And so I think it's a mistake to look at them as a 
bogeyman.
    Chairwoman Johnson. Thank you. Yes?
    Dr. Zurbuchen. I think the discussion that we're having 
here is a complicated discussion because both aspects are 
relevant. So, first of all, we are the leaders, and you should 
not have somebody else in my job if you would expect something 
other than me to say I worry about remaining the leader and I 
want to be ahead, actually moving forward faster than the ones 
who come behind us.
    At the same time, I do believe one of the most important 
elements of science is the ability of nations to come together 
and work on problems that transcend boundaries or even 
political kind of boundaries that separate them from each 
other. Over a long time, it's those kind of activities that 
have brought us together as humans and have made us better 
overall. And I do hope, as we go forward and learn about these 
other countries, whatever it might be, whether it's China, 
whether it's Russia, whether it's other countries, that we get 
better at this because we sure want them to work on public 
science using the policy that we have pioneered where all data 
are out there for the entire science community to use 
worldwide.
    Chairwoman Johnson. Thank you very much. My time is 
expired.
    Chairwoman Horn. Thank you, Chairwoman. The Chair now 
recognizes Mr. Brooks for 5 minutes.
    Mr. Brooks. Dr. Zurbuchen, these questions and comments 
will be primarily for you. I'm looking at your written 
testimony to this Subcommittee, and it states, quote, ``We are 
building for the long-term, and this time we're going to the 
Moon to stay,'' end quote. Later on, it says NASA, quote, 
``looks to land humans on the Moon within five years,'' end 
quote.
    After describing the Artemis 1 and Artemis 2 missions, you 
go on to say, quote, ``Then the Artemis 3 mission will send the 
first crew to the lunar surface using commercial human landing 
services that depart from the Gateway outpost orbiting the 
Moon,'' end quote.
    So, at a minimum, we've got Artemis 1, Artemis 2, Artemis 
3, the Gateway outpost that has to be designed, built, launched 
into lunar orbit. What's the total additional amount of money 
NASA needs in order to accomplish this landing on the Moon with 
humans by 2024?
    Dr. Zurbuchen. That's a question that we're grappling with 
as we go forward and do the analysis. We already submitted for 
FY 2020, the incremental, you know, request at $1.6 billion for 
that year. The increments for 2021 and beyond will be part of 
the next budget proposal as we go forward. It's a question that 
we are currently working with, and of course my parts of that 
are the science parts, which are well-defined and I can talk 
about in much more detail.
    Mr. Brooks. Well, I'm on an authorization committee. 
Obviously, this is Space Subcommittee-related. And for us in 
Congress to be able to grapple with these things, we need some 
idea of how much cost is expected to be incurred over the next 
five years. Are you telling me that, yeah, we've got the $1.6 
billion more or less for FY 2020 but we have no idea whatsoever 
what the next four years' cost will be in order to accomplish 
this human landing by 2024?
    Dr. Zurbuchen. We're in the process of working through that 
right now and----
    Mr. Brooks. I understand you're in the process, but do you 
have any idea as to what the cost ranges may be, minimal to 
high, so far in this process, or do we literally have no idea 
what we're getting into when we talk about Artemis 1, Artemis 
2, Artemis 3, and Gateway?
    Dr. Zurbuchen. I--I'm not at this moment in time able to 
talk about all the elements of that, and especially in a 
directorate where most of the funding is incurred, which is not 
the Science Mission Directorate that I'm working on.
    Mr. Brooks Let me ask the same question but with respect to 
2028, by which time we're supposed to have a sustainable Moon 
surface operation. Do you have any idea as to how much 
additional money NASA is going to need in order for us to have 
a permanent human presence on the south pole of the Moon by 
2028, any idea?
    Dr. Zurbuchen. The budget proposal that you have in front 
of you in 2020 had----
    Mr. Brooks. I'm talking not just that one year. I get the 
one year. But it's more than one year, and we've got to budget 
and plan. Do you have any range of numbers that you can share 
with us and the American people about what we're getting into 
when we try to put this outpost on the Moon?
    Dr. Zurbuchen. At this moment in time I don't have a range 
of numbers that I can share.
    Mr. Brooks. All right. Let's talk about the Gateway outpost 
for a moment. Can you please describe what that is in a way 
that helps American taxpayers understand what they're paying 
for in terms of size or weight or rooms or how it might compare 
to the International Space Station, something that gives 
American taxpayers a reference point as to what this Gateway 
that's going to be circling the Moon on a permanent basis looks 
like?
    Dr. Zurbuchen. The Gateway also is of course funded out of 
the Human Directorate, not out of our directorate but is--the 
way I think of it is like an outpost we have as a high-altitude 
camp next to a mountain. I'm from the mountains, you know. You 
go out there, it's a small, very simple----
    Mr. Brooks. OK.
    Dr. Zurbuchen [continuing]. Place for----
    Mr. Brooks. What does small mean? When you say small, is 
that a one-room vehicle that's orbiting the Moon----
    Dr. Zurbuchen. Perhaps it's a two-room vehicle or, you 
know, small relative to the size of number of people involved. 
It is simple at this moment in time to enable the early goal of 
2024----
    Mr. Brooks. I understand the purpose of it. Let me go to my 
last question. With reference to the Gateway, you talk about 
solar electric propulsion. What is that?
    Dr. Zurbuchen. Solar electric propulsion is a way of 
accelerating objects--spacecraft around. We use it in science. 
In this case it will be used for Gateway. It basically loads 
up--we bring a gas with us such as, you know, a noble gas or, 
you know, at that--cesium or something else that basically sits 
there, and we use an electric voltage that we get from--the 
power of which we get from the sun to accelerate those 
particles out the back and therefore propel us forward.
    Mr. Brooks. Well, thank you Dr. Zurbuchen, for your answer 
to my questions as best you're able. For what it's worth, no 
other representative of NASA has been able to tell us what this 
cost might be either.
    Dr. Zurbuchen. Thanks.
    Mr. Brooks. Thank you, Madam Chairman.
    Chairwoman Horn. Thank you, Mr. Brooks.
    The Chair now recognizes Mr. Bera for 5 minutes.
    Mr. Bera. Thank you, Madam Chairwoman.
    So I understand Mr. Brooks' line of questioning is--you 
know, if we're thinking about multi-year and potentially multi-
decadal missions, to have some sense of what that sequence 
looks like. When I think about it in the context of the Apollo 
mission, you know, I think there was a sense--a goal that 
didn't span one Administration but went from one Administration 
to the next and gave some certainty to NASA what that ultimate 
goal was.
    I've heard each of you talk about the importance of the 
decadal survey of--kind of an objective process that is 
scientific, not politically based and then really kind of rank 
orders it. And each of you has emphasized the importance of 
once this survey is out there, to really try to, as best as 
possible, adhere to the recommendations in the survey because, 
again, when you're talking about science and you're talking 
about doing things that you may not have done before, there has 
to be a longer-term commitment.
    Maybe, Dr. Gentemann, if you want to just describe, you 
know, briefly what the decadal survey process looks like and 
why it is so important.
    Dr. Gentemann. Thank you. The decadal survey process starts 
with the Academies issuing one or two maybe RFIs, requests for 
information, from the community to one or both of those white 
papers. Often, you know, you have a specific word limit. Those 
white papers are generated--I think for the Earth science 
decadal there were 290. Some of these were written by one or 
two authors. Others were written by hundreds. So you end up 
having the opinion, a consensus opinion of multiple communities 
within the Earth science.
    Those white papers are then given to subcommittees who 
distill them down. For the Earth science they were distilled 
to, I believe, 130 science questions that were seen as 
important by the community. Those 130 science questions were 
distilled to 35 observables. Those were then prioritized and 
ranked so that there could be--if one observable maybe 
addressed multiple scientific questions, you would prioritize 
that higher. This was a very difficult and thoughtful process, 
which is why the community stands behind it so strongly. Thank 
you.
    Mr. Bera. And, Dr. Sykes, what's the downside of not trying 
to adhere to the decadal survey recommendations?
    Dr. Sykes. Well, then it's just kind of random in terms of 
what happens. And our development becomes more constrained by 
political considerations than science considerations. So it's a 
way of coming together. The value of the decadal is it's 
supposed represent a consensus of the community. It's a process 
that could be improved. I know the Academy has its limits. If 
it was up to me--and I was involved in the first Planetary 
Decadal Survey--I would allow public comment on the committee 
reports and the steering committee report before things are 
finalized, but----
    Mr. Bera. So it's not a perfect process, but it is----
    Dr. Sykes. But it is----
    Mr. Bera [continuing]. A very good process?
    Dr. Sykes. Yes, it's a good process. We started to solicit 
white papers from the community back 20 years ago. The 
astronomers were very jealous of that because they would like 
to have the individual input. And getting that community input 
is, I think, essential.
    Mr. Bera. And it's something that, you know--that we as 
Members of Congress with oversight should pay attention to and 
help guide us in our authorizing process, as well as kind of 
the appropriations process.
    Dr. Sykes. If I could make one comment, Congressman, but 
often we're too distracted by the bright shiny objects. The 
largest projects recommended by the decadals, on the planetary 
side at least, it's the recommendation for the largest mission. 
It's not the top recommendation of the survey, and we need to 
pay attention to the little stuff, too.
    Mr. Bera. Right. So in the decadal survey are they ranking 
order of what programs and objectives we should--they don't 
always rank order the big shiny objects first, though----
    Dr. Sykes. Oh, yes.
    Mr. Bera [continuing]. They do rank order.
    Dr. Sykes. Yes. In planetary----
    Mr. Bera. So----
    Dr. Sykes [continuing]. They do. It's the recommendations 
for the largest missions, what kind of medium missions should 
be pursued----
    Mr. Bera. So this is when we're authorizing and we're 
thinking about the budget, we should sit down with the NASA 
administrators, scientists, et cetera, and make some of those 
tradeoffs, taking small programs as well as large programs into 
account.
    I'm about out of time, so I will actually yield back.
    Chairwoman Horn. Thank you, Mr. Bera.
    The Chair recognizes Mr. Olson for 5 minutes.
    Mr. Olson. I thank the Chair, and a big Texas welcome to 
our four expert witnesses.
    I want to talk about going back to the Moon. I had the 
honor to spend a whole day with the most recent American to 
walk on the Moon, Captain Gene Cernan. He was back home in 
Texas 22 for a better part of a day to just drive around and 
talk to kids about getting excited about NASA and space. Our 
discussions were overshadowed by the Obama Administration's 
cancellation of the Constellation project, the one that was 
supposed to take us back to the Moon under George W. Bush. That 
was sort of shading the whole environment down there.
    But Captain Cernan was very adamant about going to the 
Moon. He said that's the best place to go to prepare for going 
to Mars. He's pointed out that we've only spent 300 hours on 
the Moon, a little over a week, 12 Americans, not a whole lot 
of presence, six places we actually landed upon. We've missed a 
lot of the whole Moon. He also said we don't know what we don't 
know about the Moon. He pointed out, for example, that about 37 
years after he walked on the Moon, we found out, hey, there's 
water on the Moon in those craters. And as you guys know, going 
to Mars or going in deep space, we have to have water for human 
beings to survive. So that's great progress.
    My question is for you, Dr. Zurbuchen. You mentioned we can 
discover things on the Moon to help us go to Mars. As I 
mentioned, Captain Cernan agrees with you. Can you go further 
in detail on this topic? How can we help us learn more about 
the Moon that gets us to Mars quickly?
    Dr. Zurbuchen. That's a really important question that 
you're asking, a question worth thinking about both from the 
science side but also from the human and technological side. 
There's a fundamental difference about being in low-Earth orbit 
and being away from Earth, and that has to do with the 
radiation environment that's out there. The radiation 
environment, of course, is much less in low-Earth orbit because 
of the fact that we have a magnetic field that kind of pulls 
away, directs away particles that are coming from deep space. 
That radiation environment, living in that environment for a 
longer duration is something that is existential to go to Mars 
but is something that we're going to learn being near the Moon 
on the surface of the Moon for a long time. We want to learn 
about resources like you talked about.
    Ultimately, what we want to learn is actually to live off 
the land, if you want, relative to the resources that are 
there, whether it's the water there, some resources that may 
actually lead to companies or kind of commerce in other ways. 
That is a positive thing. It's something that we should think 
about, that has guided us. We would not sit in the United 
States here, this country we love, if the people ahead of us 
did not think that way. So it's about learning how to do that, 
also developing the technologies to sustain life in deep space.
    Mr. Olson. And as you mentioned, too, having access to 
water out of our orbit is huge because with our current 
propulsion systems it takes 10 pounds of propellant to put up 1 
pound of water into orbit, so that means you have to have a 
huge rocket pulling all that water out of Earth going through 
our atmosphere. If it's there on the Moon, it's there for the 
taking, and I think that's something we should push. And 
getting there in five years is very, very doable if we make a 
commitment.
    Another question for you, Doctor, is about the presence in 
this budget request for science. It's a decrease from the FY 
2019 appropriations but still the highest ever proposed by an 
Administration. It's increased again. The President added an 
amendment there. He put on another $90 million. What does NASA 
plan on doing with that extra $90 million, and how does that 
differ from the existing commercial lunar payload services 
initiative?
    Dr. Zurbuchen. I'm really glad for the question because it 
relates directly to what we just discussed. What we seek to do 
ahead of a human landing is actually bring robotic mobility, so 
a rover to the south areas, the polar areas of the Moon and 
actually look for water and the state it's in just in a way, as 
Dr. Sykes talked about in his testimony. That's what the 
additional $90 million allows us today, to buy that service to 
go over and accelerate going there ahead of humans going to 
that very region.
    Mr. Olson. I have a few more questions but not much time, 
so I'll yield back the balance of my time.
    Chairwoman Horn. Thank you very much. The Chair recognizes 
Ms. Wexton for 5 minutes.
    Ms. Wexton. Thank you, Madam Chair, for yielding. And thank 
you to the witnesses for coming to testify today.
    I am from Virginia where we have two incredible NASA 
facilities at Langley and Wallops Island. They both play 
important roles in many of NASA's scientific missions from 
launching CubeSats designed and built by Virginia students to 
testing key components of the Europa Clipper. So we know 
firsthand how NASA science missions increase our understanding 
of our solar system, deep space, and our own planet.
    Dr. Gentemann, you wrote in your prepared testimony that 
the PACE and CLARREO Pathfinder missions proposed for 
cancellation in the Administration's FY 2020 budget request are 
considered part of the Program of Record for the decadal survey 
recommended--and recommended to be continued as a top priority. 
What would the impact be to our scientific understanding of the 
Earth and its changing climate if these two missions were 
canceled?
    Dr. Gentemann. Thank you, Ms. Wexton. So the PACE mission 
is the Plankton, Aerosol, Cloud, ocean Ecosystem. It's a 
critical mission for quantifying the role of the ocean 
ecosystem and the global carbon cycle. When it's launched, it 
will give us unprecedented insight into the Earth's ocean and 
atmosphere, and collecting data on these systems is critical to 
understanding their effects on climate and Earth's 
habitability.
    The instruments on PACE will allow for more detailed 
understanding of carbon uptake by the various phytoplankton 
species, and this is sort of the crux of it. This data will 
allow scientists and policymakers to be in a stronger position 
when prioritizing climate change mitigation strategies.
    The CLARREO Pathfinder mission is designed to demonstrate 
in-space satellite intercalibration, and I've been involved in 
satellite calibration for over 20 years, and having this 
capability is just incredibly exciting to me as a scientist. 
It's essential to provide accurate well-characterized data. And 
it will provide the ability to intercalibrate instruments in 
space at accuracies 5 to 10 times beyond current capabilities.
    These are both part of the assumed baseline Program of 
Record, and the Program--the decadal survey, all of these 
observations from these missions are interwoven into what sort 
of societal benefits we can expect by following this 
recommended guideline and including new missions so that it's 
all built on each other. Thank you.
    Ms. Wexton. Thank you very much. So I served in the State 
legislature in Virginia before I came to Congress, and one of 
the things that we have--it's kind of unique in Virginia is we 
have a 1-term Governor. And, as a result, we've got 4 years 
when one thing might be a priority for that Governor, and then 
another Governor comes in 4 years later and changes the 
priorities. So it had been cybersecurity, and now it's high-
tech manufacturing or whatever it may be.
    So seeing this decadal survey that is peer-reviewed and, 
you know, scientifically based is very encouraging to me rather 
than have, you know, the politics or the--you know, what a 
current administration may want to be focusing on be the focus.
    But, Dr. Sykes, you testified that there were some 
shortcomings in the way that this program is administered and 
the issues with transparency and competition. Can you elaborate 
on that a little bit more?
    Dr. Sykes. Well, yes, I believe competition is key, 
particularly in our research data analysis programs that we 
need to make sure where the money is going, to what parties, 
and so there's some open questions about that.
    One of the main things which has come up over the last, you 
know, 6 years or so has been the hiding of costs of proposals 
from reviewers. I mean, this was something that, for the 
decades that I've been in the community and serving on panels 
and stuff, was a regular thing of being asked, well, is this 
good--is this a cost-effective proposal or, gee, this proposal 
is 3 times as much as 3 lower-ranked proposals. But what's the 
value of those 3 proposals taken together? That's not something 
a program officer can really answer.
    I had an interesting--and I don't want to waste your time--
experience where a proposer--top-ranked proposal wanted all the 
money of the program.
    Ms. Wexton. Imagine that.
    Dr. Sykes. So we dealt with that. But--so making this 
information available, being transparent about costs, and also 
in terms of compliance with the decadal, just being open about 
what budgets are actually being spent. As you see in my 
testimony, there are some pretty interesting variations in 
terms of--in the planetary side what was considered research 
and analysis programs from 1 month to the next.
    Ms. Wexton. OK. Thank you very much, and I yield back.
    Chairwoman Horn. Thank you, Ms. Wexton.
    The Chair now recognizes Mr. Posey for 5 minutes.
    Mr. Posey. Thank you, Madam Chair. When you talk to people 
who aren't familiar with history and you mention the importance 
of our space program to the survival of our species, you get 
some chuckles and you even get some harassment. A lot of that 
diminished somewhat when we had that relatively small asteroid 
implode over Russia 1,000 miles from the nearest living person 
and injured 1,000 to 1,500 people. It did wake up some people 
to the possibilities.
    The Planetary Science Division of the Space Mission 
Directorate is responsible for the Planetary Defense 
Coordination Office, which searches for, characterizes, 
catalogs near-Earth objects that could collide with the Earth. 
NASA established the Planetary Defense Coordination Office in 
2016 in response to the NASA Inspector General's report. And 
the Trump Administration is calling for significant increase in 
near-Earth orbit funding.
    Congress asked NASA to identify 90 percent of all hazardous 
near-Earth objects by 2020. NASA recently provided us a report 
that indicated they're not able to reach the goal in that time 
period but that the National Science Foundation's Large 
Synoptic Survey Telescope, coupled with a space-based infrared 
mission, could accelerate the survey.
    Mr. Zurbuchen, I just wonder if you could tell me if NASA 
is now ready to go and what the time element may be.
    Dr. Zurbuchen. Thanks for the question. We're committed of 
course that--to achieve that goal. We're not going to make it 
by 2020. I should have started a few years before. Sorry, but--
no, I mean, look, I mean, we are--what we're focusing on are 
two things. First of all, we want to use any and all assets 
that are available, whether it's from the National Science 
Foundation or from our own missions to look at the data that 
are there and include it into the very database that you're 
talking about.
    For example, the TESS mission that's out there in 
astrophysics is one of those sources that we're piping into 
that very analysis. The second one is through the increase by 
close to a factor of three of that particular budget line 
together with our team were enabled to actually do the very 
mission that you're talking about. In fact, we've started to 
invest in the technology, the sensor technology to detect those 
very cold objects. And it's our expectation to go forward with 
that mission in the next few years as a budget wedge becomes 
available in that line.
    Mr. Posey. OK. Mr. Sykes, did you want to comment on that? 
You had the largest grin when we were talking about survival of 
the species.
    Dr. Sykes. Well, we do have the technology, and with the 
moving forward of the NEOCam mission, that provides the space-
based infrared component. The limit to Earth-based 
observatories--and I'm a telescope jockey myself--is that you 
can only observe at night. And when you can only observe at 
night, that means that you can't see much interior to the 
Earth's orbit toward the sun. And we can be hit by stuff from 
there, too. The NEOCam mission is placed at Earth-sun L1 in 
between the sun and the Earth, closer to the Earth, and it's 
scanning tens of degrees closer to the sun, so it captures well 
inside the orbit of Venus, all the objects that are moving in 
there.
    And there's an interesting thing--I'm sorry, please cut me 
off, but----
    Mr. Posey. Yes, go ahead.
    Dr. Sykes [continuing]. That, you know, for instance, those 
Chelyabinsk-sized 20-meter type objects that exploded in the 
atmosphere over Russia. Well, about 5 times as many of those 
objects are hitting us--based on detecting flashes in the 
atmosphere and infrasound--than are predicted by the asteroid 
population models from ground-based observatories.
    Why is that? Well, there is a possible answer is that you 
could have a breakup of interior--asteroid interior to the 
orbit of the Earth, and we're getting fragments from that. But 
you wouldn't pick that up in a ground-based telescope, but you 
would with NEOCam. So there's all kinds of--having this 
combination of these ground-based sources in combination with 
NEOCam is really going to put this to rest not by 2020 but, you 
know, probably within 5 years of its launch.
    Mr. Posey. The longest silence I've ever heard in this 
Committee is when the President's Chief Scientist, the NASA 
Administrator, and the Secretary of the Air Force were asked in 
one of our Committee hearings if a relatively small asteroid, 
the one that detonated over Russia, were headed for the Big 
Apple and we had a week's notice, which we wouldn't have, what 
would we do? And that's the longest silence we ever heard in 
this Committee.
    Thank you. Thank you, witnesses.
    Chairwoman Horn. Thank you, Mr. Posey.
    The Chair now recognizes Mr. Perlmutter for 5 minutes.
    Mr. Perlmutter. Thank you. And, Dr. Sykes, never apologize 
for your enthusiasm. We appreciate it. We've had some 
tremendous panels lately, and I just want to thank all of you 
for being here.
    So I'm going to start with a couple softballs, and then 
we'll work it up from there. So, Dr. Zurbuchen, I understand 
you visited my alma mater last week----
    Dr. Zurbuchen. That's right.
    Mr. Perlmutter [continuing]. University of Colorado at 
Boulder, so I'm just curious what you were talking about, what 
kinds of science matters were generally discussed, and also how 
is NASA getting along with its university partners?
    And then, Dr. Spergel, I'll let you kind of follow up from 
an academic institution point of view.
    Dr. Zurbuchen. We at NASA think of the university partners 
as just that, they're partners. They're part of our mission 
without whom we cannot be successful. I therefore personally 
visit universities on a regular basis all around the country, 
and I was in Colorado talking about a variety of both missions 
that are ongoing there but also of ideas that are there that 
would make us better as we go forward.
    The University of Colorado is among universities unique in 
the sense that it's the only university I'm aware of where 
during a Saturday football game, in the middle, the ad comes on 
and talks about NASA, so I love those games.
    Mr. Perlmutter. Thank you. Dr. Spergel, how do you see the 
partnership or the relationship with NASA working between the 
institutions and the agency?
    Dr. Spergel. Thank you. Generally working well in that I 
see it working in sort of two different forms, both of which I 
think are important. For the scientific missions, we often have 
situations where some of the leadership of the missions sit at 
the universities. For example, in the IMAP project that was 
just selected, my colleague Dr. McComas at Princeton is leading 
IMAPs and working together with NASA centers. When I worked on 
the Wilkinson Microwave Anisotropy Probe, we worked very 
closely with our Goddard colleagues.
    And I think universities bring some flexibility, some 
innovation, perhaps most importantly really smart, eager, young 
students. And they bring a lot to projects.
    And, on the other hand, I think what NASA centers do well 
is continuity. There are long-term capabilities that sit at the 
centers, and I think we can get a balance between the two.
    To go--to echo something that Dr. Sykes talked about, 
another important role the university plays is in the research 
community. And it's the universities that train and develop 
graduate students. And one of the things that happens that we 
have to be very careful about when mission overruns, there's 
always a temptation to cut the research budget and research 
analysis budget in order to make sure that those projects go. 
When those things are cut, that eliminates, you know, graduate 
student careers----
    Mr. Perlmutter. Right.
    Dr. Sykes [continuing]. Because a lot of the funding goes 
to students. And I think educating the undergraduates and 
educating the graduate students is a really important role that 
the universities play in the whole scientific enterprise.
    Mr. Perlmutter. A couple weeks ago we had a young woman who 
was a computer scientist who was the one who knit together all 
the pictures of the blackhole at the center of our galaxy. And 
she was, you know, brilliant and excited and enthusiastic, and 
she jazzed all of us up. So it's important to have that energy, 
that enthusiasm, and that, you know, new look at things.
    So let's talk about space weather for a second. You know, 
we had a bill last cycle--it's coming back--to try to, you 
know, provide some more information about, you know, whatever 
kinds of flares, radiation, et cetera, are coming to us from 
the Sun. So can you talk a little bit, Dr. Zurbuchen, about, 
you know, what we're doing with the heliosphere and those kind 
of things?
    Dr. Zurbuchen. The space environment of the Earth, just 
like the Earth itself, is a system that has both magnetic 
forces and plasma streams that interact with us as a 
technological society. The decadal of heliophysics that is 
driving our investments talks--has a key element, a whole 
chapter dedicated to space weather. That chapter 7 basically 
tells us we should, from NASA, provide and support to our 
operational agencies and, for example, look at L1 monitors as a 
continuing kind of capability. That's something we're working 
on right now with NOAA.
    It also said that we should focus on research-to-operations 
work and also in reverse, look at how the operational data will 
help us drive more research. We started programs in both of 
those areas and are working with NOAA to do that. It also 
talked about investments in knitting together to create more 
strength and capability. It's something that we're working on 
and focused on.
    Mr. Perlmutter. Thank you, and I yield back to the Chair.
    Chairwoman Horn. Thank you, Mr. Perlmutter.
    The Chair now recognizes Mr. Waltz for 5 minutes.
    Mr. Waltz. Thank you, Madam Chairwoman. And thank you so 
much, witnesses, for coming today.
    So my questions today focus on the Commercial Lunar Payload 
Services, CLPS, the CLPS program, which is of course within 
NASA's Science Mission Directorate and provides commercial 
lunar landers for S&T payloads and has been described by NASA 
as the first major step to return astronauts to the Moon. So 
I'm a supporter of the program and in fact submitted an 
appropriations request to fully fund CLPS in FY 2020.
    Bottom line, the 21st century space race is on. The Moon 
will be a critical part of it. On May 31, NASA awarded 
contracts to three companies under CLPS, and one of these 
companies, Beyond Orbit Inc., has elected to locate its lunar 
lander assembly facility in my district in Volusia County, Port 
Orange, Florida, which is fantastic, something we're very 
excited about. My district is just north of the Cape. And we're 
looking at at least 50 employees coming to our communities.
    So my questions, and forgive me, Dr. Zurbuchen----
    Dr. Zurbuchen. Yes.
    Mr. Waltz. So a condition, and I know there's been some 
questions on this already, but just to clarify, a condition of 
the CLPS procurement stipulates that the awardees have to be 
U.S. companies. So, again, can you assure Florida's taxpayers 
that NASA will not outsource its space exploration and will 
continue to focus on American companies, as it has throughout 
its history?
    Dr. Zurbuchen. Absolutely. We will use the very same 
processes that we're using for launch capabilities in which we 
assure that the majority of all design manufacturing is right 
here for it to be falling under any contract that we would 
support from NASA. We actually have initiated a review of that, 
an audit of that right now before we put money into that 
particular company. We'll do so with others.
    I, for now, actually think that it's a strength of the 
United States to attract companies that might have been 
invented elsewhere and come here and hire Americans and give 
them jobs and create economic activity right here on our soil.
    Mr. Waltz. No, I completely agree, and obviously there is 
an IP issue here, there's a national security issue, there's a 
number of issues wrapped around that on top of ensuring 
taxpayers receive that return on investment. So thank you for 
that.
    You've also said, Dr. Z, and I agree with my colleagues, 
that the landers contracted through CLPS will, quote, ``bring 
us closer to solving the many scientific mysteries of our Moon, 
our solar system, and beyond, and what we learn will not only 
change our view of the universe but also prepare our human 
missions to the Moon and eventually Mars.'' Can you elaborate 
on those thoughts and explain how these lunar payloads and the 
broader science mission is preparing NASA for human missions to 
the Moon and again, then, the follow-on to Mars?
    Dr. Zurbuchen. If one looks at lunar science, what's really 
exciting about this is the Moon that we investigated during the 
Apollo program with the probes that we brought back, today is a 
very different science discipline than then. For example, even 
in the last few years, kind of a decade or so, again, the 
prevalence of water in--both on the inside of grains but also 
in--observed remotely from the Moon, it's basically reshaped 
our view of that--of our celestial companion.
    So we have those kind of questions that actually were 
mentioned in the decadal in the planetary decadal that we can 
now do because we actually don't have to buy a whole billion-
dollar spacecraft but we have a chance of doing through this 
new methodology. There's other questions that relate to the 
absolute age of the solar system, questions that are out there 
that actually have sharpened our understanding of activity, 
geologic activity in this planet that otherwise we did not 
think about before. It's those kind of questions we want to go 
up after, driven by principal investigators through a 
competitive process and taking advantage of that capability.
    Mr. Waltz. Well, you have a supporter here, presuming we 
need to spend those moneys smartly and efficiently.
    I have Embry-Riddle Aeronautical University in my district. 
If you could submit for the record how the Mission Directorate 
partners with STEM institutions like Embry-Riddle for research 
and development, I'd be very appreciative. Thank you, and I 
yield.
    Dr. Zurbuchen. Will do so.
    Chairwoman Horn. Thank you, Mr. Waltz.
    The Chair now recognizes Mr. Beyer for 5 minutes.
    Mr. Beyer. Thank you. And, Chairwoman Horn, I really want 
to thank you for holding this hearing.
    You know, we hear so much about the Administration's 
plans--constantly changing plans--to send humans to Moon or to 
Mars. It's actually great to hear about NASA's key science 
programs.
    Dr. Spergel, in your testimony you stated that, quote, 
``Understanding the nature of dark energy is one of the most 
compelling problems in physics, and that Europe and China are 
leading the way on this.'' Without WFIRST, would we be behind 
other nations in studying dark energy?
    Dr. Spergel. Yes, we would. I mean, now, we are partners 
with the Europeans on Euclid, but they are the leading--they're 
leading that study where we're partners there.
    I mean, one of the--WFIRST, you know, is a mission that I 
think we want to do because of the compelling science it does.
    Mr. Beyer. So tell me why--in layman's terms, why is dark 
energy compelling?
    Dr. Spergel. It's 75 percent of the universe, and we don't 
know what it is, so it's most of what's out there. It's driving 
the expansion of the universe. It will determine the universe's 
fate, whether it expands forever, whether it's torn apart by a 
big rip, whether that--it turns around and collapses. It will 
be governed by the nature of dark energy.
    Mr. Beyer. Will our research into dark energy also give us 
insight into dark matter?
    Dr. Spergel. Perhaps. We--we're in the embarrassing 
situation of not knowing what makes up 95 percent of the 
universe. We know there's dark energy; we know there's dark 
matter. One of the things--actually working right now with an 
undergraduate with--my assignment for the train ride on the way 
back is to send him some detailed notes is, does dark energy 
interact with dark matter?
    Dark matter clusters gravitationally. It behaves 
differently from the dark energy. It clusters in our galaxy so, 
you know, in this room we think there's lots of dark matter 
streaming through us. But, again, we don't know what it is.
    There are a number of different ways that NASA missions are 
going after studying dark matter. The Compton Gamma Ray 
Observatory is looking for dark matter annihilation. We are 
mapping the large-scale distribution of the dark matter right 
now with Hubble. We will be able to do that with much more 
power with WFIRST. It can image more than 100 times the area in 
each image as the Hubble does.
    Mr. Beyer. Let me jump on a WFIRST question because----
    Dr. Spergel. Yes.
    Mr. Beyer [continuing]. The President zeroed it out in his 
last couple budgets. We've put it back. You know, we like to 
say here it's the most important issue in the decadal survey 
that's been ignored by this Administration. But in casual 
conversations, you know, the cocktail-party conversations with 
NASA scientists, they say the other side of that is that by 
turning over $510 million or some billions of dollars to the 
outside government contractors, we're squeezing out the other 
essential science that needs to be done within NASA.
    Dr. Spergel. Well, I think it's important that NASA 
maintain a balanced program, right? So you don't--we don't want 
to see WFIRST funded at the expense of severe cuts in the 
research program. This is why--and I think the--I would applaud 
the budget that's been--you know, come out of the 
Appropriations Committee here in the House this year that 
provide support in astrophysics both for research and analysis 
and for the WFIRST mission. And that goes beyond what was 
requested by the President's budget.
    Mr. Beyer. Yes, thank you. Dr. Z, there's an article 
published 4 days ago in Scientific American that stated--and 
let me quote again--``The White House is considering whether to 
require scientists from NOAA, NASA, or other agencies to 
participate in the review, and the review being the program run 
through the National Security Council portrayed as a 
`correction' to the National Climate Assessment according to 
sources involved in the planning.'' The article notes that Dr. 
Gavin Schmidt, a scientist at Goddard Institute for Space 
Studies was identified by the White House as a possible 
participant.
    Are NASA scientists going to be required to debate the 
credibility of the National Climate Assessment? And how does 
NASA feel about its scientists being dragged into the climate 
skeptics at the White House?
    Dr. Zurbuchen. And so, just like you, I've read the article 
in the press. I have personally not been engaged in any of the 
detailed discussions on that very issue. I would have to take 
additional information that you might want to know about this 
for the record.
    Generally speaking, I believe that the science that we're 
doing, whether it's in this question or any other question, has 
the same kind of rules and that is it's perfectly fine to ask 
questions. We want to use the scientific method to answer those 
questions. And I have every belief that, no matter what the 
discussion is, that our scientists, whether at universities or 
within the government, would know how to handle this and other 
questions.
    Mr. Beyer. Yes. And I certainly heartily agree that it's 
perfectly right to ask the questions, but you do have the 
concern when they say that being part of this could actually 
damage their careers, you know, by giving them the taint that 
they're part of something that is anti-scientific.
    Dr. Zurbuchen. I just want to say that it will be a shame 
if the science community would turn on people who are asked to 
serve their government in whatever form to help in a discussion 
and do what scientists do. And if somebody said we can no 
longer talk to you, it would be a shame if the science 
community behaved that way.
    Mr. Beyer. All right. Great. Thank you very much. Madam 
Chair, I yield back.
    Chairwoman Horn. Thank you, Mr. Beyer. And thank you, 
witnesses.
    The Ranking Member and I have a couple of additional 
questions, and then we will wrap this up. There were just a 
couple of things that we haven't quite touched on yet, and I 
want to say thank you to all of you. You've been very engaging 
and have been very helpful witnesses.
    So, Dr. Spergel, I wanted to ask you about life and 
physical sciences. Right now, we know at--you're the former 
Chair of the Space Studies Board, and so you've looked across 
NASA's activities. And given that this science helps us 
understand how microgravity, how space environments impact 
human physiology and physical systems and then this research is 
helping inform our space exploration, that right now, this is 
under the Human Space Exploration Operations Mission 
Directorate, which is absolutely understandable.
    What I'd like to hear is your views on how effective this 
placement of life and physical sciences is under the human 
exploration mission and in enabling our scientific progress and 
if you foresee any need for any potential changes moving 
forward in the placement.
    Dr. Spergel. There's very good science going on in life and 
physical sciences. That said, I'm sometimes concerned that the 
Earth--the Exploration Directorate does not have the culture of 
scientific review that SMD has. I think one of the real 
strengths of the SMD is whether you're looking at big mission 
proposals or a small research grant, everything is evaluated by 
peer review and most everything is competed, and I think that's 
very important.
    I think for physical and life sciences it's not--doesn't 
matter so much whether it sits in exploration or sits in SMD. I 
think the argument for sitting in SMD is it's doing science. 
The argument for sitting in exploration is that it informs 
particularly the life science aspects of the exploration 
mission. I think what is important is that it operate under the 
principles of competition and peer review.
    Chairwoman Horn. Thank you very much. And I want to turn 
our attention now--several of you have addressed the issue of 
graduate students filling the pipeline and so, Dr. Z, the GAO 
(Government Accountability Office) and the NASA Inspector 
General have both identified challenges with workforce 
shortages related to our science missions. And clearly, that is 
an issue moving forward as we delve into this.
    So I'd like to hear what are NASA's biggest challenges to 
sufficiently staff NASA science missions and your insight in 
the most efficient or effective ways to address those?
    Dr. Zurbuchen. The IG report that you're referring to is 
specifically focused on Europa Clipper, and this has been with 
me for the year, so it was no surprise whatsoever. I'm focused 
on it. The issue there is that we're right now finishing off 
the Mars 2020 lander, and frankly, the top talent is working on 
that pushing it over the finish line.
    I visited the group last week and actually had a review of 
that work yesterday. The good news is we're on track and we're 
making a lot of progress. The bad news is some of the people 
that we were going to put on the next mission were working, 
finishing off Mars 2020. That has to be the highest priority.
    So we will take the recommendations, as provided by the IG, 
look at the schedule of what we're doing and going back. What I 
don't want to do is increase necessarily the Center size. What 
I want to do is think about how we distribute the work and how 
we in fact space strategic-scale missions relative to each 
other to make sure that we don't step on each other's feet.
    The other thing that I've talked to the Director about is 
really focusing on mentorship of that next-generation leader 
that is out there. I strongly believe that the most important 
predictor for our leadership 10, 20 years from now is the 
talent that we're attracting and growing right now in our 
organizations. So I've focused on that as a second priority.
    Chairwoman Horn. Thank you. Would any of the other 
witnesses like to comment on that last question?
    Dr. Sykes. Well, I believe what Dr. Zurbuchen was referring 
to is operational personnel, but when it comes to the science 
team, that's another issue because the Mars scientists are not 
the people that are working on the Europa mission. And there 
seems to be some kind of consistent over the years scaling down 
of science team population and support and relying more on some 
of the research programs to try to pick up the slack for 
analyzing the data. And of course research programs can't do 
that in real time, which is what missions, you know, need. So 
that's another issue.
    And as far as the young people are concerned, it's--I think 
we--it doesn't help young people to be pushed in the profession 
if there's no--you know, early career if there's no midcareer, 
so we need to be looking at that as well.
    Chairwoman Horn. Thank you, Dr. Sykes.
    Dr. Spergel, did you have----
    Dr. Spergel. Yes, I just want to comment that I--one piece 
of this problem is the changing enforcement of our immigration 
laws, that we attract outstanding scientists from throughout 
the world to study here, and many of the best want to stay 
here. And I think it's important that we remain open to these 
outstanding scientists who want to remain here.
    Chairwoman Horn. Thank you. Dr. Gentemann?
    Dr. Gentemann. I'd also like to emphasize I think we're at 
a--the--attracting new talent, we're right at the cusp of this 
very exciting time in science where how science is being done 
is being reorganized. Within cloud computing and within open-
source software, suddenly the types of questions that you can 
ask are completely different because you've sort of put aside a 
lot of the data wrangling and you can handle the information 
that you have very differently.
    And being able to attract very exciting cutting-edge young 
scientists means that we also have to evolve as scientists in 
how we do science so that we can attract them and let them know 
that, you know, interdisciplinary science and open-source 
software will help them build their careers. And I think it's a 
very exciting time for science, and I think that we have a good 
chance of attracting these young technologically capable 
people. Thank you.
    Chairwoman Horn. Thank you very much. Mr. Babin?
    Mr. Babin. Thank you, Madam Chair. I just have a couple of 
questions.
    Dr. Zurbuchen, NASA is increasingly leveraging novel ways 
to acquire science data such as data buys, hosted payloads, 
ride shares, and CubeSats. Can you speak to the progress that 
NASA has made on this front?
    Dr. Zurbuchen. I really appreciate that question. We look 
at commercial opportunities like that as opportunities to get 
more science per dollar. That's the motivator for us. Instead 
of building a whole spacecraft, we can take data that a 
commercial entity might acquire for other market needs and 
make----
    Mr. Babin. Right.
    Dr. Zurbuchen [continuing]. That data available to the 
public. We have at this moment in time--besides the commercial 
lunar initiative we already talked about--a handful of other 
programs in play in which we're experimenting and learning 
about that, the most important of which in my opinion is the 
one focused on the data of our planet. We're in the middle of a 
year-long trial period. Frankly, what we're trying to learn is 
how to price in the market what we should pay for data. And 
that's a really important thing because on the one hand we want 
to spend--of course support our own U.S. companies. On the 
other hand, we also are deeply aware that we're spending 
taxpayers' money. So we're trying to figure out how to find 
that right price point. That's exactly what we're learning 
right now. There's other experiments just like it.
    Mr. Babin. OK. Well said. Also, the budget request proposes 
launching the Europa Clipper on a commercial launch vehicle 
despite appropriations laws that require the mission to be 
launched on an SLS (Space Launch System) to decrease the 
transit time and maximize the science conducted around Europa. 
How will the mission science be impacted by this particular 
decision?
    Dr. Zurbuchen. If we launch on a commercial launch vehicle 
that could currently be available, it would add between 3 to 5 
years or so of transit time depending on how we go there. That 
would have, of course, cost relative to the overall science 
team because we don't want to fire every scientist and then 
somehow hope we can hire them back.
    Mr. Babin. Right.
    Dr. Zurbuchen. We need to keep essential teams there. It 
would of course require some resilience, and depending on where 
we fly by--for example, there's orbits where we would fly by 
Venus. Venus is a hot planet, so we have to do a different 
thermal design as we fly by there, so it's important to us to 
figure out which way we're going to go as we go forward. Of 
course, we will follow the law.
    Mr. Babin. You bet. You know what, I've got one more I want 
to ask if you don't mind.
    Chairwoman Horn. Of course.
    Mr. Babin. Dr. Sykes, sometimes missions are delivered 
under cost. In order to incentivize cost-effective development 
of principle investigator-led missions, and this is to you as 
well, Dr. Zurbuchen, should NASA explore the possibility of 
allowing the principal investigator to use funding saved on 
development for research and analysis activities? If both of 
you gentlemen would like to answer that.
    Dr. Sykes. Well, I think that in the context of the cost-
capped missions that we don't want people to be busting the 
budget by borrowing from, you know, Peter to pay Paul here.
    Mr. Babin. Exactly.
    Dr. Sykes. And I think that--and we don't do accounting 
across, you know, many years, you know, on these missions, so I 
don't know if that would be workable. So I----
    Mr. Babin. OK. Dr. Zurbuchen?
    Dr. Zurbuchen. So, generally speaking, even though we have 
not made it a policy, what we have done to incentivize people 
under running their budget is by enhancing in some ways 
sometimes one-to-one their research programs. So many of the 
researchers frankly, what motivates them for a given mission, a 
P.I.-class mission, is that they want to do science, the 
mission is a path to the goal. The goal is to science. And so 
what we're trying to do is encourage them by basically not 
ripping away the money that they save the government and all of 
us but reinvesting that into a team because obviously we don't 
even have--we don't have just the good scientists. We already 
checked that. We also have a good leader, so we want to invest 
in those people.
    Mr. Babin. Well, thank you. Thank you very much. And with 
that, I yield back.
    Chairwoman Horn. Thank you very much, Mr. Babin.
    Before we bring this hearing to a close, I want to 
sincerely thank all four of you for being incredibly good 
witnesses. The--your insights, the clarity, the way you 
answered questions, and the reminder of the importance of the 
work that NASA Science Mission Directorate does and the 
importance of balancing the needs of science and being 
responsible stewards of our taxpayer dollars, as well as I 
think, Dr. Spergel, the reminder of the known unknowns and the 
unknown unknowns that are out there. So thank you all for being 
with our Committee today.
    The record will remain open for 2 weeks for additional 
statements from Members and for any additional questions the 
Committee may ask of the witnesses.
    The witnesses are excused, and the hearing is now 
adjourned.
    [Whereupon, at 11:53 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Dr. Thomas H. Zurbuchen

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Chelle Gentemann

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. David Spergel

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Mark Sykes

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                   Additional Material for the Record




Additional responses submitted by Dr. Thomas H. Zurbuchen

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Report submitted by Dr. Chelle Gentemann

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
